DOE F 1325.8
(08-93)
United States Government                                                          Department of Energy


memorandum
        DATE:    June 16, 2005                                          Audit Report No.: OAS-L-05-08

    REPLY TO
   ATTN OF:      IG-30 (A04DN002)

    SUBJECT:     Department of Energy's Implementation of its Chronic Beryllium Disease Prevention
                 Program
           TO:   Assistant Secretary for Environment, Safety and Health


                 INTRODUCTION AND OBJECTIVE

                 The Department of Energy (Department) used beryllium in many nuclear operations
                 and processes. While useful because of its strength and light weight, the material can
                 be hazardous. Exposure to it can lead to beryllium sensitization, an allergic reaction
                 which may make an individual susceptible to Chronic Beryllium Disease (beryllium
                 disease), an often debilitating and sometimes fatal lung condition. There is no known
                 cure for beryllium disease.

                 In response to concerns regarding the increased recognition of the risk of beryllium
                 disease, the Department published a rule in the Code of Federal Regulations (CFR) at
                 10 CFR 850 establishing a Chronic Beryllium Disease Prevention Program
                 (Prevention Program). The Department's Office of Environment, Safety and Health
                 (EH) is responsible for developing Prevention Program policy, while Department
                 sites are responsible for implementation. The Prevention Program became effective
                 in January 2000 and full compliance by sites was expected within 2 years. The
                 Prevention Program required sites to develop and implement a plan to minimize
                 worker exposure. The Department established the Prevention Program as a proactive
                 effort to create worker protection and medical surveillance requirements more
                 stringent than those of the Federal Occupational Safety and Health Administration.
                 Because of the importance of worker safety, we initiated this audit to evaluate the
                 Department's progress in implementing its Prevention Program.

                 CONCLUSIONS AND OBSERVATIONS

                 The Department is making progress in implementing its Prevention Program. For
                 example, sites have established formal medical surveillance programs and stringent
                 protection requirements for work in beryllium contaminated areas. In addition, sites
                 performed detailed root cause analyses when worker exposure was above Prevention
                 Program exposure limits. However, we noted opportunities for the Department to
                                           2

strengthen implementation by addressing Prevention Program policy weaknesses and
determining Prevention Program applicability to certain workers.

                                  Policy Weaknesses

We noted that additional guidance is needed to ensure consistent application of the
Prevention Program at all Department sites. For example, the Prevention Program
requires sites to compile an inventory of facilities to determine whether potential
beryllium contamination exists. However, current Department policy lacks specific
information needed for sites to compile beryllium facility inventories, such as what
information sites should use to add a facility to the inventory. Specifically, site
industrial hygienists were unsure whether a facility should be added when an
employee believes beryllium was kept or used in a facility, when beryllium use was
verified, or when air and surface contamination levels were analyzed. To illustrate
this point, the Office of Inspector General issued a letter report (INS-L-05-04, dated
June 3, 2005) referencing concerns over beryllium contamination that occurred at a
Department facility. The report noted that it took 16 months to complete the
characterization and inventory of this facility after contamination was discovered.
Further, the report noted the lack of guidance to aid in the timely completion of such
characterizations and inventories. However, sites have undertaken a number of
positive actions to identify beryllium-contaminated facilities, such as performing
detailed sampling and characterization of facilities as part of their site inventories.

The Department's policy also lacks specificity in areas such as sampling strategies
(e.g., how to sample in elevated areas such as ventilation systems) and methodologies
(e.g., use of wet versus dry sampling methods) for contaminated facilities and
equipment, which continue to create questions for site health and safety officials. In
August 2002, the Department established a working group consisting of
representatives from EH and site industrial hygienists that identified these and other
policy weaknesses. Although the Department stated its intent to initiate action to
correct policy weaknesses, its efforts remained incomplete after more than 2 years.
EH reiterated its intent to address the policy weaknesses in a December 2003
memorandum between the Assistant Secretary for Environmental, Safety and Health
and the Administrator for the National Nuclear Security Administration. Nonetheless,
the-Department has not addressed the weaknesses identified by the working group.

                           Prevention Program Applicability

'While the Department has made progress in identifying and providing Prevention
 Program protections for workers at its sites, at the time of our audit, it had not yet
 determined the extent to which the Prevention Program was applicable to the Paducah
 (Paducah) and Portsmouth (Portsmouth) Gaseous Diffusion Plants. While these sites
                                            3

are now operated by the United States Enrichment Corporation (USEC), beryllium
contamination has been discovered from legacy production activities performed by
the Department. The Department was not aware of beryllium contamination issues
when USEC assumed operational control and the Prevention Program was not
established until several years after the transfer. The use of beryllium at the two sites,
such as in legacy activities involving Work for Others at Paducah and incidental
machining of beryllium at Portsmouth, has been confirmed in recent years. Like other
Department sites, Paducah and Portsmouth have begun, but not completed,
inventories of beryllium facilities. The risk of exposure remains a concern, and in
July 2004 Portsmouth had a worker exposure above the Prevention Program limit due
to the hazardous nature of the work being done. Paducah and Portsmouth union
officials have also expressed concern about the lack of Prevention Program coverage
for USEC workers, some of whom are prior Department employees.

The Department told us it recognized these issues and had initiated actions to address
these concerns. For example, officials from the Department's Portsmouth/Paducah
Project Office indicated that they were working with USEC and officials from
Department Headquarters program offices to address these issues. Nonetheless, the
issues have not been resolved. Until the extent of applicability is determined, USEC
workers at Paducah and Portsmouth may not receive similar benefits, such as medical
monitoring and surveillance benefits. For instance, USEC workers are only entitled
to one beryllium-related medical examination, while the Prevention Program allows
ongoing medical examinations.



SUGGESTED MANAGEMENT ACTIONS

To address policy and implementation issues outlined in our report, we suggest that
the Assistant Secretary for Environment, Safety and Health coordinate with cognizant
Department program and oversight offices to:

     1. Implement actions to address Prevention Program policy weaknesses
        identified by the working group;

    2. Ensure site facility inventories are current, accurate, and complete; and,

     3. Address beryllium-related coverage at Paducah and Portsmouth.

We discussed the audit results with EH and Department Headquarters program office
officials in June 2005. Since no formal recommendations are being made in this letter
                                          4

report, a formal response is not required. We appreciate the cooperation of your staff
during the audit.




                                      William S. Maharay
                                      Deputy Inspector General
                                        for Audit Services
                                      Office of Inspector General


cc: Under Secretary for Energy, Science and Environment
    Chief of Staff
    Administrator, National Nuclear Security Administration
    Director, Office of Nuclear Energy, Science and Technology
    Director, Office of Science
    Director, Office of Security and Safety Performance Assurance
    Team Leader, Audit Liaison Team, ME-100
                                                                                     Attachment

                                SCOPE AND METHODOLOGY

The audit was conducted from November 2003 to May 2005 at the following Department sites:
    * .Hanford Site, Richland, Washington;
    * Kansas City Plant, Kansas City, Missouri;
    * Los Alamos National Laboratory, Los Alamos, New Mexico;
    * Paducah Gaseous Diffusion Plant, Paducah, Kentucky;
    * Pantex Plant, Amarillo, Texas;
    * Portsmouth Gaseous Diffusion Plant, Piketon, Ohio;
    * Rocky Flats Closure Project, Golden, Colorado; and,
    * Y-12 National Security Complex, East Tennessee Technology Park, and Oak Ridge
       National Laboratory, all in Oak Ridge, Tennessee.

The auditors also obtained summary information from other sites in the Department:
    *   Argonne National Laboratory, Argonne, Illinois;
    *   Argonne-West National Laboratory, Idaho Falls, Idaho;
    *   Fernald Closure Project near Ross, Ohio;
    *   Lawrence Livermore National Laboratory, Livermore, California;
    *   Miamisburg Closure Project, Miamisburg, Ohio;
    *   Nevada Test Site's Nevada Site Office, Las Vegas, Nevada;
    *   Sandia National Laboratories, Albuquerque, New Mexico; and,
    *   Savannah River Site, Aiken, South Carolina.

To accomplish our objective, we held discussions with local site Department and contractor
officials, site union representatives, and officials from Department Headquarters programmatic
offices; reviewed site-specific plans and documentation of local site actions to minimize
worker exposure as stipulated in Prevention Program policy; compared local site
implementation efforts to Prevention Program policy; determined the adequacy and
completeness of aspects of Prevention Program policy and guidance; and, reviewed the
Government Performanceand Results Act of 1993 and determined if performance plans and
measures had been established.

The audit was performed in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance with
laws and regulations to the extent necessary to satisfy the audit objective. The Department did
not establish specific beryllium-related performance standards; therefore, we could not assess
how they might have been used to measure performance. Because our review was limited, it
would not necessarily have disclosed all internal control deficiencies that may have existed at
the time of our audit. Computer-processed data was not considered critical to our audit
objective; therefore, we did not test the reliability of the data. We discussed the audit results
with Department management officials in June 2005.
                                                                                               Page 1 of 1



 Miller, Cindy

 From:      Garland-Smith, Judy
 Sent:      Tuesday, June 28, 2005 10:48 AM
 To:        Miller, Cindy
 Subject: request reports



  Hi Cindy can you help me with this request for Access to DOE OIG Report OAS-L--05-08, IG-30 ( A04DN00 8)
  ---June 16, 2005

 Dear Sir or Madam:

 Pleas      ovide a cop or access to the subject document.

  h      you,


 Dan 1Ruggles
 United States Enrichment Corp.

 P.O. Box 628. MS-2209

 3930 U.S. Route 23 South

 Piketon, OH 45661




 Reports Manager
 Department of Energy
 Office of Inspector General
 Office of Resource Management




6/28/2005
,                                Department of Energy
        SWashington,                                    DC 20585

                                          July 13,            2005



MEMORANDUM FOR WILLIAM S. MAHARAY
               DEPUTY INSPECTOR GENERAL FOR AUDIT SERVICES
               OFFICE OF INSPECTOR GENERAL

FROM                    MICHAEL A. KILPA*      4-     *
                        DIRECTOR, OFFICE OF INDEPENDENT OVERSIGHT
                        OFFICE OF SECURITY AND SAFETY
                         PERFORMANCE ASSURANCE

SUBJECT                 Department of Energy's Implementation of the Chronic Beryllium
                        Disease Prevention Program Report, #OAS-L-05-08

The Office of Independent Oversight and Performance Assurance (OA), within the Office of
Security and Safety Performance Assurance, has received and distributed the subject report to
key OA staff members. The information concerning this important issue will be useful to our
staff as we continue to review the safety and health programs of sites across the Department of
Energy complex. While we agree that the Department has made progress in identifying and
providing prevention strategies for workers, more can be done to improve the Chronic Beryllium
Disease Prevention Program process. We will continue to review safety programs that have
identified Beryllium as a regulatory program requirement and will also continue to use your
suggested management actions in our review process.

If you have any questions, please contact me at (202) 586-4399, or your staff may contact
Dr. Patricia R. Worthington, OA's Director of Environment, Safety and Health Evaluations, at
(301) 903-5392.

cc:
G. Podonsky, SP-1
G. Friedman, IG-1
J. Hartman, IG-20
P. Worthington, OA-40
T. Staker, OA-40
M. Mielke, OA-40




                                  ®     Printed with soy ink on recycled paper
 08/02/05               TUE 14:17 FAX 423 241 3897              OIG                                                 [1002
DOE   F 1225.8




United States Government                                                                    Department of Enery

memorandum
      DATE:         June 16, 2005
REPLY TO
 ATTN TO:           IG-36

SUBJECT: Final Report Package for "Department of Energy's Implementation of its Chronic
                                                                                        Beryllium
         Disease Prevention Program"

         TO:       Linda Snider, Director, Planning and Administration


                   Attached is the required final report package on the subject audit. The pertinent details are:

                    1.     Actual StaffDays:      N/A

                          Actual Elapsed Days: 567

                   2.     Names of OIG audit staff:

                          Assistant Director: Fredrick Pioper
                          Team Leader: Mark Mickelscn
                          Auditor-in-Charge: James Franco
                          Audit Staff: Lisa Hansen

                   3.     Coordination with Investigations and Inspections: Report was coordinated with
                          Reggie France, Investigations Point of Contact, and Fatima Pashaei, Inspections
                          Point of Contact, on June 9, 2005.



                                                                       redrick.   Pieper, Dire
                                                                      Environmental Audits Division
                                                                      Office ol Inspector General

                 Attachlnents:

                 1.Final Report
                 2.Monetary Impact Report
               3.Audit Project Summary Report
               4.Audit Database Information Sheet
08/02/05     TLE 14:17 FAX 423 241 3897                             OIG                                                                   0003




                               MONETARY IMPACT OF REPORT NO.: OAS-L-05-08

           1. Title of Audit:          TheDepartment of Enery'rs Implementation of ts Chronic Beryllium
                                       Disease Prevention Program

       2. Division:                    Environmental Audits Division

       3. Project No.:                A04DN002

       4. Type of Audit:
                 Financial:                                               Performance:        X
                    Financial Statement                                     Economy and Efficiency
                    Financial Related                                       Program Results                          X
                 Other (speci fy type):

       5. Please report monetary savings identified in the report. If unable to
                                                                                 quantify monetary savings at
          this time, please identify any potential future impact on audited activities/locations
                                                                                                 in the remarks
          section below.

                     FINDING               ST                                                                       MOT.      POTENTIAL
                           FIAVOIDNANCO
                                     a VOIDANC:                                   QUESTIONED COSTS                 POSITION    BUDOEFr
                                                                                                                               IMPACI"
           (A)                )               (C)         )         (E)             ()       (G)          (IIM)                  (
                           Title              One    Rccurring   Questioned       Unsup-    Unre-          otal    C=Concur
                                             Timnu    Amount                                                                    Y=Yc5
                                                                                  porc'd    snlvcd   (E)+(F) (6)   N=Noncon     N=No
                                                     PrYcr                    _                       E    )        U ndcc
                                                                                                                   I1i)
                 Department could improve    $0                                                      $0                          N
                    nimplementati0o
                                 or iLs
                 Chronic Beryllium Disease
                 Prcvention Iroralm.
       TOTAIS-ALL I:NININCGS                                                                         0__



      6. Remarks: None.

      7. Contractor:                                             10. Approvals:
      8. Contract No.:                                           Division Director/Dat
      9. Task Order No.:                                         Technical Advisor &
 08/02/05         TUE 14:18 FAX 423 241 3897                       OIG                                                               o006
                                             Office of the Inspector General (OIG)
                                       Audit Project Office                   Summary (APS)

                                                                                                                                 1
Report run on:                    July 30, 2005 6:17 PM                                                                   Page


  Audit#: A04DN002              Ofc:   DNA     Title: IMPLEMENTATION OF BERYLLIUM WORKER EXPOSURE

                                                          ****    Milestones     ****
                                              Planned      End of Survey                    Revised        Actual
                                             "-------- ----------------------                ------------ -----------
   Entrance Conference:.....                 01-OCT-03                                  06-NOV-03        06-NOV-03
   Survey: ..................                                                           11-FEB-04        11-FEB-04
  Draft Report:.............             17-MAY-04
  Completed (with Report):.              30-SEP-04                11-FEB-04             17-JUN-05        16-JON-05      (R)
   -------------       Elapsed Days:             365                     97                    589            588

  Date Suspended:     10-NOV-04                             Date Terminated:
                                                                                              FElap.   Less Susp:       567

  Date R:activated:   01-DEC-04                             Date Cancelled;
  DaysSuspended(Cur/Tot):     0 (                       2.) Report Number:   OAS-L-05-08
  Rpt Title:                             Report Type:     LTR LETTER REPORT
  DEPARTMENT OF ENERGY'S INPLEMENTATION OF ITS CHRONTC BERYLLIUM DISEASE
                                                                         PREVENTION PROGRAM.


                                        S.    .**** Audit Codes and Personnel ****
  Class:    PER PERFORMANCE
  Function:     Not Found
  MgtChall: 120 WORKER/COMMUNITY SAF
  Site:     MSA MULTI-SITE AUDIT                                           AD:        496       IEPER
  SecMis
  SecMfiss:     Not
                Not Found
                    Found                                                 AIC:        574      FRANCO
                                                                     Team Ldr:        342      MICKELSEN
  PresInit:               Not Found                                  TechAdv:         544      ACTON

                                                S****    Task Information **-

        Task No:
        Task Order Dt:                                        CO Tech. Rep:
        Orig Auth Hrs;                                        Orig Auth Costs;
        Current Auth:                                         Current Auth Cost:
        Tot Actl IPR Hr:                                      Tot Actl Cost:


                                                   ****       Time Charges     ****
                      Emp/Cont Name            Numdays              Last Date
                      WEBS, G                           0.5        01-NOV-03
                      SERRANO, S                        5.6        11-JUN-05
                      MICKELSEN, M                 40.1            25-JUN-05
                      HANSEN, L                   133.8            21-AUG-04
                      FRANCO, J                 . 231.8
                       Tta.l:                     411.8
 08/02/05   TUE 14:18 FAX 423 241 3897             OIG                                      3007
                                  Office of the Inspector General (OIG)
                                Audit Project Office Summary (APS)

Report run on:            July 30, 2005 6:17 PM                                         Page 2

                                   ****    Keywords ****.


                 BERYLLIUM SENSITIZATION
                 CHRONIC BERYLLIUM DISEASE PREVENTION PROGRAM


   Lo                        **** Location Information ***
    ode     Description

   KCA      KANSAS CITY SITE OFFICE (
   KCP      KANSAS CITY PLANT
   RFA      ROCKY FLATS FIELD OFFICE
   RFC      ROCKY FLATS ENVIRONMENTAL

                                 ****Finding Information ***  Bud Mgt   Dept    Dept
   Find#             Title                 Tyre Amount    Yrs Imp Pos   Pos
                                                                              . ........
                                                                                ..
                                                                                ...
                                                                                 Amount Date
  08/02/05     TUE 14:18 FAX 423 241 3897                 OIG                                            0008
                                   Office of the Inspector General                (OIG)
                                 Audit Project Office Summary (APS)

Report run on:              July 30, 2005 6:17 PM                                                   Page 3



          i   TAudit                 .[r -
                                    ....... ....
                                             _.-----..
                                                         History   __
                                                                        --_   _

  udit No:       A04DN002                History Date:          07-JUL-05
 History Text:
  PB/   'ENTERED COMPLETED WITH REPORT DATE.



                                               '                                   .      ......
                                                                                              ...
08/02/05   TUE 14:18 FAX 423 241 3897               OIG                                                1[004




                            AUDIT DATABASE INFORMATION SHEET

       1. Project No.: A.04DN002

       2. Title of Audit: The Department of Energy's Implementation of its Chronic Beryllium
          Disease Prevention Program

       3. Report No./Date OAS-L-05-08; June 16, 2005

       4. Management Challenge Area: Performance Management, Worker and Community
          Safety

       5. Presidential Mgmt Initiative: None

       6. Secretary Priority/Initiative: None

       7. Program Code: (EH-3) Worker Health and Safety

       8. Location/Sites: Various DOE sites in audit scope. Report recommendations are
          addressed to DOE Headquarters Program Offices:

           DOE   Office of Environment, Safety and Health, Washington, DC, Germantown, MD
           DOE   National Nuclear Security Administration, Washington, DC
           DOE   Office of Environmental Management, Washington, DC
           DOE   Office of Independent Oversight and Performance Assurance

       9. Finding Summary:

            The Department is making progress in implementing its Chronic Beryllium Disease
            Prevention Program (Prevention Program). However, we noted opportunities
                                                                                             for the
            Department to strengthen implementation by addressing Prevention Program
            weaknesses and determining Prevention Program applicability to certain workers.
            Specifically, we noted that although the Department has identified a number of
            Prevention Program policy weaknesses, it has not yet fully addressed them. In
            addition, we found that while the Department has initiated actions to address Prevention
            Program applicability at its Paducah and Portsmouth Gaseous Diffusion Plants, the
            extent of applicability has not yet been resolved. Until the extent of applicability
                                                                                                 is
            determined, United States Enrichment Corporation workers at Paducah and Portsmouth
            may not receive benefits comparable to those of the Prevention Program, such as
            medical monitoring and surveillance benefits.


      10. Keywords: (include as many as you like)
                    Worker Safety and Health
                   Beryllium Exposure
                   Chronic Beryllium Disease Prevention Program
08/02/05   TUE 14:18 FAX 423 241 3897           OIG                         1005




                     Beryllium Facility Inventory
                     Equipment and Facility Characterization and Sampling
                     Prevention Program Policy
                     Work for Others
                     DOE Office of Environment, Safety and Health
                     DOE 'National Nuclear Security Administration
                     DOE Office of Environmental Management
                     Portsmouth/Paducah Project Office
                     United States Enriclunent Corporation
